No. 19-743
In the Supreme Court of the United
__________________

States

CURTIS T. HILL, JR., ATTORNEY GENERAL
OF INDIANA, IN HIS OFFICIAL CAPACITY, ET AL.,

v.

Petitioners,

WHOLE WOMAN’S HEALTH ALLIANCE, ET AL.,
Respondents.

__________________

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

__________________

BRIEF OF KENTUCKY, ALABAMA, ALASKA,
ARIZONA, ARKANSAS, IDAHO, KANSAS,
LOUISIANA, MISSOURI, MONTANA, NEBRASKA,
OKLAHOMA, SOUTH CAROLINA, TENNESSEE,
TEXAS, UTAH, AND WEST VIRGINIA AS
AMICI CURIAE SUPPORTING PETITIONERS

__________________

DANIEL CAMERON
S. CHAD MEREDITH
Attorney General of Kentucky
Solicitor General
Counsel of Record
BARRY L. DUNN
MATTHEW F. KUHN
Deputy Attorney General
Deputy Solicitor General
Office of the Kentucky
BRETT R. NOLAN
Attorney General
Special Litigation Counsel
700 Capital Avenue
Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
chad.meredith@ky.gov
Counsel for Amici Curiae
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTERESTS OF AMICI CURIAE . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

The second question presented is vitally
important to states because they have the
sole power to license medical providers . . . . . 4

II.

The Seventh Circuit’s holding conflicts with
this Court’s sovereign immunity decisions, as
well as those of other circuits . . . . . . . . . . . . . 9

III.

Federal courts must, at the very least,
abstain from using equitable relief as a
means to override state licensing schemes . 16

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

ii
TABLE OF AUTHORITIES
CASES
Alden v. Maine,
527 U.S. 706 (1999). . . . . . . . . . . . . . . . . . . . . . . . 9
Berry v. Allen,
411 F.2d 1142 (6th Cir. 1969). . . . . . . . . . . . . . . 13
Bragg v. W. Va. Coal Ass’n,
248 F.3d 275 (4th Cir. 2001). . . . . . . . . . . . . . . . 10
Burford v. Sun Oil Co.,
319 U.S. 315 (1943). . . . . . . . . . . . . . . 3, 17, 18, 19
Colo. River Water Conservation Dist. v.
United States, 424 U.S. 800 (1976) . . . . . . . . . . 17
Cory v. White,
457 U.S. 85 (1982). . . . . . . . . . . . . . . . . . . . . . . . 11
Curling v. Sec. of Georgia,
761 F. App’x 927 (11th Cir. 2019) . . . . . . . . . . . 15
D.C. Court of Appeals v. Feldman,
460 U.S. 462 (1983). . . . . . . . . . . . . . . . . . . . . . . 16
Dent v. West Virginia,
129 U.S. 114 (1889). . . . . . . . . . . . . . . . . . . . . . 6, 7
Ex parte Young,
209 U.S. 123 (1908). . . . . . . . . . . . . . . . . . . passim
Gregory v. Ashcroft,
501 U.S. 452 (1991). . . . . . . . . . . . . . . . . . . . . . 8, 9
Hawker v. New York,
170 U.S. 189 (1898). . . . . . . . . . . . . . . . . . . . . . . . 7

iii
Hornsby v. Allen,
326 F.2d 605 (5th Cir. 1964). . . . . . . . . . . . . 13, 14
Idaho v. Coeur d’Alene Tribe of Id.,
521 U.S. 261 (1997). . . . . . . . . . . . . . . . . 10, 14, 15
J.B. ex rel. Hart v. Valdez,
186 F.3d 1280 (10th Cir. 1999). . . . . . . . . . . . . . 14
Jacobson v. Massachusetts,
197 U.S. 11 (1905). . . . . . . . . . . . . . . . . . . . . . . . . 5
Jensen v. State Bd. of Tax Comm’rs
of Indiana, 763 F.2d 272 (7th Cir. 1985) . . . 12, 13
Mayor of New York v. Miln,
36 U.S. 102 (1837). . . . . . . . . . . . . . . . . . . . . . . . . 5
MSA Realty Corp. v. Illinois,
990 F.2d 288 (7th Cir. 1993). . . . . . . . . . . . . . . . 12
N.C. State Bd. of Dental Examiners v. FTC,
574 U.S. 494, 135 S. Ct. 1101 (2015) . . . . . 6, 7, 19
New Orleans Public Serv., Inc. v. Council of City of
New Orleans, 491 U.S. 350 (1989) . . . . . . . . . . . 17
Okpalobi v. Foster,
244 F.3d 405 (5th Cir. 2001). . . . . . . . . . . . . . . . 11
Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89 (1984). . . . . . . . . . . . . . . . . . . . . . . . 10
Pennsylvania v. Williams,
294 U.S. 176 (1935). . . . . . . . . . . . . . . . . . . . . . . 17
Printz v. United States,
521 U.S. 898 (1997). . . . . . . . . . . . . . . . . . . . . . 5, 8

iv
Quackenbush v. Allstate Ins. Co.,
517 U.S. 706 (1996). . . . . . . . . . . . . . . . . 17, 18, 19
Rooker v. Fid. Trust Co.,
263 U.S. 413 (1923). . . . . . . . . . . . . . . . . . . . . . . 16
Tenn. Wine & Spirits Retailers Assoc. v. Thomas,
--- U.S. ---, 139 S. Ct. 2449 (2019) . . . . . . . . . . . 19
United States v. Lopez,
514 U.S. 549 (1995). . . . . . . . . . . . . . . . . . . . . . . . 5
Va. Office for Protection & Advocacy v. Stewart,
563 U.S. 247 (2011). . . . . . . . . . . . . . . . . . . . 11, 12
OTHER AUTHORITIES
Mitch Altschuler, Note, The Dental Health Care
Professionals Nonresidence Licensing Act: Will
it Effectuate the Final Decay of State
Discrimination Against Out-of-State Dentists?,
26 Rutgers L.J. 187 (1994) . . . . . . . . . . . . . . . . . . 6
Gregory Dolin, Note, Licensing Healthcare
Professionals: Has the United States Outlived
the Need for Medical Licensure?, 2 Geo. J.L. &
Pub. Pol’y 315 (2004) . . . . . . . . . . . . . . . . . . . . . . 6
The Federalist No. 45 (James Madison) (Clinton
Rossiter ed., 1961, reprinted 1999) . . . . . . . . . 4, 5
Edward P. Richards, The Police Power & the
Regulation of Medical Practice: A Historical
Review and Guide for Medical Licensing Board
Regulation of Physicians in ERISA-Qualified
Managed Care Organizations, 8 Annals Health
L. 201 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

1
INTERESTS OF AMICI CURIAE1
In the decision below, the United States Court of
Appeals for the Seventh Circuit ordered the State of
Indiana to issue a license to a would-be provider of
abortion services. See Whole Woman’s Health Alliance
v. Hill, 937 F.3d 864, 879 (7th Cir. 2019). Indiana’s
Petition for Writ of Certiorari presents two questions,
the second of which is whether a federal court may
order a state agency to issue an abortion clinic license
as a remedy for an “as applied” undue-burden
challenge to the state’s implementation of its licensing
laws. The amici States have fundamental sovereign
interests in the answer to this question because the
licensing of businesses and professions is a matter
generally left to the states as part of their police power.
Allowing federal courts to order the issuance of state
licenses will interfere with state sovereignty and
disrupt the delicate balance of power between the
states and the federal government. The amici States
seek to protect their sovereignty and preserve their
rightful place in our Republic’s system of federalism.
The amici States also have an interest in protecting
their residents. Unlike the federal government, the
states have a general police power that gives them
broad authority to protect the health, safety, and wellbeing of their people. As a result, the amici States
have established regulatory frameworks governing
certain industries and professions. And, as part of
their regulatory frameworks, the amici States require

1

Amici have notified counsel for all parties of their intention to file
this brief. Sup. Ct. Rules 37.2(a), 37.4.

2
individuals and businesses to become licensed before
providing certain services in regulated industries and
professions. To determine when to issue such licenses,
the amici States have created intricate, well-developed
administrative processes. This is especially true in the
healthcare field, where the provision of services
obviously has the greatest impact on the health and
safety of citizens.
Federal courts are neither equipped nor authorized
to determine when state licenses ought to be issued to
those seeking to provide medical services; only states
and their well-developed administrative processes are.
Therefore, the amici States urge this Court to grant
Indiana’s Petition and to protect states’ sovereignty by
clarifying that federal courts have no authority to order
a state agency to issue an abortion clinic license.
SUMMARY OF THE ARGUMENT
Federalism is one of the bedrock principles of our
Republic. The constitutional design established by the
Founders places a limited number of issues within the
realm of federal control and leaves the remainder for
the states to govern. The issuance of professional
licenses—especially in the medical field—is
unquestionably one of the matters left to the states. By
ordering the State of Indiana to issue a license to a
would-be provider of abortion services, the Seventh
Circuit intruded upon the realm of state authority in a
way that radically threatens our system of federalism.
The states’ authority to license the provision of
medical services within their borders stretches back to
the colonial era. It is perhaps the oldest and most

3
unquestionably legitimate form of professional
licensure in American history, and there has never
been any serious suggestion that the power to issue a
license to provide medical services within a state
resides anywhere but with the respective state itself.
The states are uniquely suited to determine which
would-be medical services providers ought to be
licensed. The federal government is neither equipped
nor authorized by the Constitution to make such
determinations. Allowing any branch of the federal
government to do so would disrupt the delicate balance
of power at the heart of our government.
Federal courts are especially ill-equipped to
determine when a state license should be issued. And,
perhaps more importantly, they are prohibited from
doing so by state sovereign immunity. The doctrine of
Ex parte Young allows federal courts to navigate
around sovereign immunity by enjoining state
officials—rather than states themselves—from
violating the United States Constitution. But that
doctrine does not permit federal courts to order a state
official to grant a state license to a would-be medical
provider. Because Ex parte Young cannot be applied in
that manner, the Seventh Circuit had no authority to
issue such an order to the State of Indiana.
Finally, even if one assumed for the sake of
argument that a federal court’s authority extended as
far as the Seventh Circuit would have it, there perhaps
could be no stronger case for abstention. Burford
abstention requires that federal courts abstain from
exercising their equitable power when doing so
interferes with the independence of state governments

4
in establishing and carrying out their domestic policies
through administrative decision-making. The actual
granting of state licenses is precisely the kind of
significant issue of public policy from which the federal
courts ought to abstain.
ARGUMENT
I.

The second question presented is vitally
important to states because they have the
sole power to license medical providers.

The Seventh Circuit essentially ordered the State of
Indiana to issue a license to a would-be provider of
medical services. In the second question presented,
Indiana asks whether a federal court has authority to
issue such an order. This question is vitally important
to the states, and it can only be answered in the
negative. The issuance of licenses to would-be medical
providers is a power that belongs solely to the states.
The Seventh Circuit’s decision tramples on that aspect
of state sovereignty.
From the beginning of the Republic, the United
States Constitution has provided for a system of
federalism in which the national government has
authority over a limited number of issues, and all
remaining authority resides in the state governments.
Writing in The Federalist No. 45, James Madison
explained that:
The powers delegated by the . . . Constitution
to the federal government are few and defined.
Those which are to remain in the State
governments are numerous and indefinite. . . .
The powers reserved to the several States will

5
extend to all the objects which, in the ordinary
course of affairs, concern the lives, liberties, and
properties of the people, and the internal order,
improvement, and prosperity of the State.
The Federalist No. 45, at 260–61 (James Madison)
(Clinton Rossiter ed., 1961, reprinted 1999). This
division of authority, which was plainly implicit in the
original text of the Constitution, “was rendered express
by the Tenth Amendment’s assertion that ‘[t]he powers
not delegated to the United States by the Constitution,
nor prohibited by it to the States, are reserved to the
States respectively, or to the people.’” Printz v. United
States, 521 U.S. 898, 919 (1997).
Among the powers reserved to the states—and
withheld from the federal government—is the general
police power. See United States v. Lopez, 514 U.S. 549,
567 (1995) (observing that the federal government has
no general police power of the sort possessed by the
states). While not always easy to define, “the police
power of a state must be held to embrace, at least, such
reasonable regulations established directly by
legislative enactment as will protect the public health
and the public safety.” Jacobson v. Massachusetts, 197
U.S. 11, 25 (1905) (citations omitted). An earlier
description of the police power recognized that states
have the authority to enact “health laws of every
description.” Mayor of New York v. Miln, 36 U.S. 102,
147 (1837).
The power to issue licenses to would-be medical
providers has always been understood to fall directly in
the heartland of the states’ police power. Indeed,
individual colonies were regulating aspects of the

6
practice of medicine as early as 1639. See Gregory
Dolin, Note, Licensing Healthcare Professionals: Has
the United States Outlived the Need for Medical
Licensure?, 2 Geo. J.L. & Pub. Pol’y 315, 316 (2004)
(citations omitted). “By 1800, thirteen of the sixteen
states had given their respective state medical boards
the power to examine and license physicians.” Mitch
Altschuler, Note, The Dental Health Care Professionals
Nonresidence Licensing Act: Will it Effectuate the Final
Decay of State Discrimination Against Out-of-State
Dentists?, 26 Rutgers L.J. 187, 192 (1994) (citations
omitted). This trend reversed course with a period of
deregulation in the mid-1800’s, but the deregulation
trend itself reversed following the Civil War. Edward
P. Richards, The Police Power & the Regulation of
Medical Practice: A Historical Review and Guide for
Medical Licensing Board Regulation of Physicians in
ERISA-Qualified Managed Care Organizations, 8
Annals Health L. 201, 206–08 (1999) (citations
omitted).
This Court first recognized that the licensure of
medical providers is a function of the states’ police
power in Dent v. West Virginia, 129 U.S. 114 (1889). In
upholding West Virginia’s licensure standards for
physicians, this Court held that “[t]he power of the
state to provide for the general welfare of its people
authorizes it to prescribe all such regulations as in its
judgment will secure or tend to secure them against the
consequences of ignorance and incapacity, as well as of
deception and fraud.” Id. at 122. Following Dent, there
was no doubt that medical licensure falls “squarely
within the States’ sovereign police power.” N.C. State

7
Bd. of Dental Examiners v. FTC, 574 U.S. 494, 135
S. Ct. 1101, 1119 (2015) (Alito, J., dissenting).
Less than a decade after Dent, this Court clarified
that the states’ police power extends not only to setting
the minimum competency standards for medical
licensure, but also to the minimum character and
moral standards of medical professionals. Specifically,
in Hawker v. New York, this Court upheld a New York
law that prohibited the practice of medicine by those
who had been convicted of a felony. 170 U.S. 189,
189–92 (1898). The Court held that:
No precise limits have been placed upon the
police power of a state, and yet it is clear that
legislation which simply defines the
qualifications of one who attempts to practice
medicine is a proper exercise of that power.
Care for the public health is something
confessedly belonging to the domain of that
power. The physician is one whose relations to
life and health are of the most intimate
character. It is fitting, not merely that he
should possess a knowledge of diseases and their
remedies, but also that he should be one who
may safely be trusted to apply those remedies.
Id. at 192–94.
The bottom line is that the licensing of medical
providers is a “quintessential” police power belonging
to the states. N.C. State Bd. of Dental Examiners, 135
S. Ct. at 1119 (Alito, J., dissenting). No part of the
federal government has authority to decide when such
a state license must be issued. Yet, the Seventh

8
Circuit appropriated that authority to itself in this
case.
The Seventh Circuit’s decision tramples on state
prerogatives and shows profound disrespect for the
proper balance of power between the states and
national government under the system of federalism
established by the Constitution. This is no small
matter. Federal courts are not competent to evaluate
the ethics and qualifications of each would-be provider
of medical services. The states—being closer to the
people and having well-developed processes for
evaluating license applications—are better equipped to
determine whether a license should be granted in any
particular instance.
Perhaps more importantly, however, the Seventh
Circuit’s decision to usurp state police power poses an
existential threat to the states, as well as to the people
themselves. The division of power between the federal
and state governments “is one of the Constitution’s
structural protections of liberty.” Printz, 521 U.S. at
921. The “constitutionally mandated balance of power
between the States and the Federal Government was
adopted by the Framers to ensure the protection of our
fundamental liberties.” Gregory v. Ashcroft, 501 U.S.
452, 458 (1991) (internal quotation marks and citations
omitted). “Just as the separation and independence of
the coordinate branches of the Federal Government
serve to prevent the accumulation of excessive power in
any one branch, a healthy balance of power between
the States and the Federal Government will reduce the
risk of tyranny and abuse from either front.” Id. “If
this ‘double security’ is to be effective, there must be a

9
proper balance between the States and the Federal
Government.” Id. at 459.
The Seventh Circuit’s decision below represents a
grave disruption of that balance, and this Court should
step in to restore the proper equilibrium by holding
that federal courts have no power to order a state to
issue a license to a would-be medical provider.
II.

The Seventh Circuit’s holding conflicts
with this Court’s sovereign immunity
decisions, as well as those of other circuits.

The Seventh Circuit not only disrupted the delicate
balance of power between the federal and state
governments, but—as Indiana’s Petition correctly
argues—the court also violated Indiana’s sovereign
immunity. In doing so, the Seventh Circuit acted in
conflict with decisions of this Court, as well as
decisions of other circuits.
As sovereign entities, the states are generally
immune from suit. See Alden v. Maine, 527 U.S. 706,
712–15 (1999). However, in Ex parte Young, this Court
held that sovereign immunity does not necessarily
prohibit a lawsuit seeking to have a state official
enjoined from taking official action that violates the
United States Constitution. 209 U.S. 123, 159–60
(1908). While this exception appears broad, it is not
nearly broad enough to authorize the Seventh Circuit’s
holding below.
It is well established that Ex parte Young does not
give blanket authorization for any and all injunctive
relief sought against state officials. Indeed, this Court
has held:

10
To interpret Young to permit a federal-court
action to proceed in every case where prospective
declaratory and injunctive relief is sought
against an officer, named in his individual
capacity, would be to adhere to an empty
formalism and to undermine the principle . . .
that Eleventh Amendment immunity represents
a real limitation on a federal court’s federalquestion jurisdiction.
Idaho v. Coeur d’Alene Tribe of Id., 521 U.S. 261, 270
(1997). There are multiple reasons why Ex parte
Young does not apply here.
First, as Indiana’s Petition correctly points out, the
doctrine of Ex parte Young does not authorize a federal
court to issue an injunction requiring a state official to
comply with his or her state’s own laws. See Pennhurst
State Sch. & Hosp. v. Halderman, 465 U.S. 89, 106
(1984). But that is precisely what the Seventh Circuit
did when it ordered Indiana to either license the
Respondent or treat it as if it were licensed under
Indiana law. For the reasons explained in Indiana’s
Petition, it is clear that Ex parte Young does not
provide a sovereign-immunity exception in this case.
See id.; see also Bragg v. W. Va. Coal Ass’n, 248 F.3d
275, 296–97 (4th Cir. 2001) (holding that the district
court violated West Virginia’s sovereign immunity by
requiring a state official to make certain findings
required as part of the state’s surface coal mining
permitting process). As a result, the decision below
necessarily violated Indiana’s sovereign immunity.
Second, it is wholly inconsistent with the theory
underlying the Ex parte Young doctrine for a federal

11
court to grant injunctive relief that orders a state
official to issue a state license. The doctrine is based
“on the premise—less delicately called a ‘fiction’—that
when a federal court commands a state official to do
nothing more than refrain from violating federal law,
he is not the State for sovereign-immunity purposes.”
Va. Office for Protection & Advocacy v. Stewart, 563
U.S. 247, 255 (2011) (internal quotation marks and
citations omitted). In other words, the theory behind
Ex parte Young is that state officials are only acting in
their individual capacities when they violate the
Constitution, and therefore an injunction prohibiting
their unconstitutional conduct is not really an
injunction against the sovereign itself. See Cory v.
White, 457 U.S. 85, 101 (1982); see also Okpalobi v.
Foster, 244 F.3d 405, 411 (5th Cir. 2001) (“This
exception rests on the fiction of Ex parte Young—that
because a sovereign state cannot commit an
unconstitutional act, a state official enforcing an
unconstitutional act is not acting for the sovereign
state and therefore is not protected by the Eleventh
Amendment.”). In the words of the Ex parte Young
Court itself, a federal court can enjoin a state official
from violating federal law because the official is
deemed to have been “stripped of his official or
representative character” due to the unlawful conduct.
Ex parte Young, 209 U.S. at 159–60.
Given this underlying theory, it is clear that the Ex
parte Young doctrine must be limited in application to
situations where the sought-after injunction would
simply compel an individual state official to stop
violating the Constitution. The doctrine does not fit in
situations—like the one at hand—where a federal court

12
orders a state official to affirmatively take some action
that can only be accomplished under the guise of the
state’s official, sovereign power. In those situations,
the injunction can no longer be justified on the premise
that the court is merely enjoining the actions of an
individual rather than a state actor.
Officials, for example, have no authority to issue
state licenses in their individual capacities; they can
only do so in their official capacities, exercising the
power of the sovereign. Thus, when a federal court
orders a state official to issue a state license, that order
cannot be viewed as anything but an injunction
ordering the state itself to issue the license. Such
injunctions are irreconcilable with sovereign immunity
because the theory underlying Ex parte Young plainly
does not apply in those situations. See Va. Office for
Protection & Advocacy, 563 U.S. at 255 (holding that
Ex parte Young “does not apply when the state is the
real, substantial party in interest” (internal quotation
marks and citations omitted)).
The Seventh Circuit itself has expressly recognized
this distinction in prior decisions. In MSA Realty
Corporation v. Illinois, the Seventh Circuit held that
“the eleventh amendment bars a claim for injunctive
relief . . . that seeks to require state officials to carry
out a task that only the state can perform in its
political capacity.” 990 F.2d 288, 295 (7th Cir. 1993).
And in Jensen v. State Board of Tax Commissioners of
Indiana, the Seventh Circuit likewise held that
plaintiffs cannot circumvent the Eleventh Amendment
by requesting injunctive relief that would “compel

13
[officials] to act solely within their capacity as state
officials.” 763 F.2d 272, 277 (7th Cir. 1985).
Other circuits have reached the same conclusion. In
Berry v. Allen, the district court ordered the Kentucky
State Alcoholic Beverages Control Board to grant an
individual a local liquor license after finding the
licensing process unconstitutionally arbitrary. 411
F.2d 1142, 1143 (6th Cir. 1969). The Sixth Circuit
reversed, holding that “[t]he District Court had no
power to tell the State of Kentucky that [it] should
have an additional liquor outlet and that Appellees
were entitled to open a store there.” Id. at 1145.
According to the Sixth Circuit, the federal court’s role
was properly limited to assessing whether the process
was unconstitutional, not deciding whether the plaintiff
should ultimately be allowed to operate a liquor store
in the state. See id. The Seventh Circuit’s decision
below clearly conflicts with the Sixth Circuit’s decision
in Berry.
The Fifth Circuit reached the same conclusion in a
case also involving liquor licenses. In Hornsby v. Allen,
the court held:
The proper question to be determined upon the
hearing of this case in the district court is not
whether the plaintiff below is entitled under the
law to a liquor license. The determination of
whether she should be granted one is a function
of the Aldermanic Board. The role of the courts
is to ascertain whether the manner in which this
determination was or is made accords with

14
constitutional standards of due process and
equal protection.
326 F.2d 605, 612 (5th Cir. 1964).
Finally, this Court has held that Ex parte Young
does not apply when the requested injunctive relief
would implicate special sovereignty interests. See
Coeur d’Alene Tribe of Id., 521 U.S. at 270. Such
interests are implicated when, as relevant here, the
requested relief would strike at a state’s fundamental
power. See J.B. ex rel. Hart v. Valdez, 186 F.3d 1280,
1286–87 (10th Cir. 1999) (citation omitted). In Coeur
d’Alene Tribe, for example, a Native American tribe
sought declaratory and injunctive relief pertaining to
a dispute that the tribe and Idaho had over land
submerged under Lake Coeur d’Alene. See 521 U.S. at
265. Specifically, the tribe sought a declaration
establishing its exclusive right to use and occupy the
land, as well as an injunction prohibiting Idaho from
regulating or permitting the land, or otherwise taking
any measures to interfere with the tribe’s exclusive
rights to the land. See id. The tribe contended that the
Ex parte Young doctrine permitted a federal court to
hear its claims, but this Court held otherwise. The
Court concluded that the suit was barred by the
Eleventh Amendment because the claim for relief
involved “special sovereignty interests.” See id. at 281.
In particular, the Court found that:
The suit would diminish, even extinguish, the
State’s control over a vast reach of lands and
waters long deemed by the State to be an
integral part of its territory. To pass this off as
a judgment causing little or no offense to Idaho’s

15
sovereign authority and its standing in the
Union would be to ignore the realities of the
relief the Tribe demands.
Id. at 282.
The case at hand similarly involves special
sovereignty interests. In fact, it is hard to imagine a
suit that would strike more at a state’s fundamental
power than the present case, where the relief granted
by the Seventh Circuit stripped Indiana of part of its
police power and placed that power in the hands of a
federal court. If the relief granted by the Seventh
Circuit in the decision below does not implicate special
sovereignty interests, then it is difficult to imagine
what would. This is not a case where a federal court
merely declared a statute unconstitutional. Rather,
the Seventh Circuit affirmatively ordered Indiana to
issue a state license. Cf. Curling v. Sec. of Georgia, 761
F. App’x 927, 934 (11th Cir. 2019) (holding that the
plaintiffs’ claims did not implicate special sovereignty
interests because they were not seeking an order
“directing the precise way in which Georgia should
conduct voting” but were instead merely seeking an
injunction against continued use of a purportedly
unconstitutional system). In doing so, the Seventh
Circuit not only commandeered Indiana’s licensure
authority—an authority that belongs only to Indiana as
part of its general police power—but it also allowed the
Respondent to skip over the Indiana courts and the
administrative and judicial appellate process provided

16
by Indiana’s licensing regime.2
This obviously
implicates extraordinarily important sovereignty
interests, which means that Ex parte Young does not
apply here.
The ultimate point is this: Indiana is a sovereign
state that enjoys sovereign immunity. While the
doctrine of Ex parte Young allows federal courts to
enjoin state officials from violating federal law under
certain circumstances, those circumstances do not exist
here. It is abundantly clear that the doctrine does not
allow federal courts to order states to issue licenses
under state law to would-be medical providers. Federal
courts simply have no power to entertain suits for such
relief.
III.

Federal courts must, at the very least,
abstain from using equitable relief as a
means to override state licensing schemes.

Even if one assumed for the sake of argument that
a federal court can order a state to issue a license to a
would-be medical provider without regard for the
state’s administrative process, it would be difficult to
find a stronger case for abstention.
Federal courts have no place deciding how states
implement their own licensing laws. To perhaps
understate the problem, the federal judiciary is
“comparatively unsophisticated” as a regulatory

2

As Indiana correctly argues in its Petition, the decision below also
contravenes the Rooker-Feldman doctrine. See Pet. at 27–30; see
also D.C. Court of Appeals v. Feldman, 460 U.S. 462, 486 (1983);
Rooker v. Fid. Trust Co., 263 U.S. 413, 415 (1923).

17
agency. See New Orleans Public Serv., Inc. v. Council
of City of New Orleans, 491 U.S. 350, 360 (1989) (citing
Burford v. Sun Oil Co., 319 U.S. 315, 327 (1943)). That
is why this Court has mandated that lower courts
abstain from exercising their equitable power in these
kinds of cases when doing so interferes with “the
rightful independence of state governments in carrying
out their domestic policy.” Burford, 319 U.S. at 318
(quoting Pennsylvania v. Williams, 294 U.S. 176, 185
(1935)).
Burford abstention protects the ability of states to
establish coherent public policy over their own affairs.
See Quackenbush v. Allstate Ins. Co., 517 U.S. 706,
727–28 (1996). Under Burford, “[w]here timely and
adequate state-court review is available, a federal
court . . . must decline to interfere with the proceedings
or orders of state administrative agencies” when doing
so would disrupt the state’s “coherent policy” on
matters “of substantial public concern.” New Orleans
Public Serv., Inc., 491 U.S. at 361 (quoting Colo. River
Water Conservation Dist. v. United States, 424 U.S.
800, 814 (1976)).
This kind of administrative
abstention prevents federal courts from “actively
participat[ing] in the fashioning of the state’s domestic
policy.” Burford, 319 U.S. at 335 (Douglas, J.,
concurring).
This rule of equity is especially pronounced in the
context of state-licensing decisions. Burford itself
involved such an issue. There, the Court ordered
abstention in a suit challenging the Texas Railroad
Commission’s decision to grant a drilling permit to the
petitioner. See id. at 317–18, 334. The plaintiff had

18
ample recourse through the state’s administrative
process, which included judicial review, but brought
suit in federal court for relief. Id. at 325. That
troubled the Court. The administrative decision to
grant a drilling permit, the Court explained, is
precisely the kind of regulatory judgment that “so
clearly involves basic problems of [state] policy” that
federal courts must refuse to resolve. Id. at 333. So,
despite having jurisdiction, the Court mandated
abstention to “avoid[] needless friction with state
policies.” Id. (citation omitted).
When states establish licensing systems and
empower administrative agencies to implement them,
those agencies become the vehicle for executing a
careful balance of public policy judgments. See id. at
318 (explaining that the Texas Railroad Commission
manages “as thorny a problem as has challenged the
ingenuity and wisdom of legislatures” (citation
omitted)). The Court in Burford recognized the danger
here from federal interference. If a federal court can
simply waive away an administrative process and order
a state to issue a license to a complaining party, the
states could quickly lose their ability to set coherent
and uniform policy throughout their borders. See
Quackenbush, 517 U.S. at 727. That kind of power
would needlessly lay waste to the careful balance of
federal and state sovereignty our Constitution protects.
The Court need not look further than its own docket
to see the kinds of cases that the Seventh Circuit’s
overreach might inspire. Last term, this Court held
that Tennessee’s residency requirement for obtaining
a retail liquor license violated the Dormant Commerce

19
Clause. See Tenn. Wine & Spirits Retailers Assoc. v.
Thomas, --- U.S. ---, 139 S. Ct. 2449, 2457 (2019). What
relief should follow from that kind of decision?
According to the Seventh Circuit, it might be perfectly
proper for the lower court simply to order that
Tennessee provide the plaintiff with a liquor license,
regardless of any administrative process that otherwise
governs. Or what if a federal court finds that a state’s
dental licensing board violated antitrust law by
preventing competition in a market? See, e.g., N.C.
State Bd. of Dental Examiners, 135 S. Ct. at 1117.
Could the court simply order that the state issue a
dental license to an unqualified applicant as a remedy
for the unlawful act? That seems to be exactly what
the Seventh Circuit did here.
Of course, no one would argue that federal courts
must always abstain from disputes touching on state
regulatory policy. Federal courts can and must
adjudicate legal challenges to state action, including
resolving the constitutionality of laws and regulations.
See Quackenbush, 517 U.S. at 716 (“We have often
acknowledged that federal courts have a strict duty to
exercise the jurisdiction that is conferred upon them by
Congress.”). But deciding whether to enjoin an
unconstitutional provision of a licensing scheme is of a
wholly different character than overriding that scheme
altogether, bypassing the administrative process, and
ordering a state to grant the complaining party a
license. Such action is an affront to the careful balance
of state and federal interests at the heart of our
Constitutional order, which is why the Court in
Burford mandated that lower courts abstain from
exercising their equitable power in this manner.

20
CONCLUSION
The decision below is deeply at odds with Indiana’s
sovereign immunity and its ability to exercise its
general police power within its own borders. The amici
States urge this Court to undo this disturbing
precedent and to provide a clear rule that federal
courts have no authority to usurp state police power by
ordering states to issue state licenses.
Respectfully submitted,
DANIEL CAMERON
Attorney General of
Kentucky

S. CHAD MEREDITH
Solicitor General
Counsel of Record

BARRY L. DUNN
Deputy Attorney
General

MATTHEW F. KUHN
Deputy Solicitor General

Office of the Kentucky
Attorney General
700 Capitol Ave., Ste.118
Frankfort, KY 40601
(502) 696-5300
Chad.Meredith@ky.gov

BRETT R. NOLAN
Special Litigation Counsel

Counsel for Amici Curiae

21
ADDITIONAL COUNSEL
STEVE MARSHALL
Attorney General of
Alabama

TIMOTHY C. FOX
Attorney General of
Montana

KEVIN G. CLARKSON
Attorney General of
Alaska

DOUG PETERSON
Attorney General of
Nebraska

MARK BRNOVICH
Attorney General of
Arizona

MIKE HUNTER
Attorney General of
Oklahoma

LESLIE RUTLEDGE
Attorney General of
Arkansas

ALAN WILSON
Attorney General of
South Carolina

LAWRENCE WASDEN
Attorney General of
Idaho

HERBERT H. SLATERY III
Attorney General of
Tennessee

DEREK SCHMIDT
Attorney General of
Kansas

KEN PAXTON
Attorney General of
Texas

JEFF LANDRY
Attorney General of
Louisiana

SEAN D. REYES
Attorney General of
Utah

ERIC SCHMITT
Attorney General of
Missouri

PATRICK MORRISEY
Attorney General of
West Virginia

